                                                                     Memorandum
Regional Inspector General
        Pretoria




         DATE:               May 8, 2000

         TO:                 Director, USAID/Kenya, Mr. Jonathan Conly

         FROM:               RIG/Pretoria, Joseph Farinella

         SUBJECT:            Audit of USAID/Kenya’s Implementation of the Federal Managers'
                             Financial Integrity Act, Report No. 4-615-00-007-P

         This memorandum is our final report on the subject audit. The report contains two
         recommendations. We have considered your comments on the draft report and have
         included them in their entirety in Appendix II.

         I appreciate the cooperation and courtesies extended to my staff during the audit.


         Background

         The Federal Managers' Financial Integrity Act of 1982 (FMFIA) establishes requirements
         for management accountability and controls for federal agencies. This law encompasses
         program, operational, and administrative areas as well as accounting and financial
         management. Under the authority of the FMFIA, the Office of Management and Budget
         (OMB) issued Circular No. A-123 Management Accountability and Control, to provide
         detailed guidance for assigning federal managers the responsibility for designing
         management structures to help ensure accountability and include appropriate cost-effective
         controls.

         OMB Circular No. A-123, states that management controls are the organization, policies
         and procedures used to reasonably ensure that: (1) programs achieve their intended results;
         (2) resources are used consistent with agency mission; (3) programs and resources are
         protected from waste, fraud, and mismanagement; (4) laws and regulations are followed;
         and (5) reliable and timely information is obtained, maintained, reported and used for
         decision making. The Circular provides guidance to Federal managers on improving the
         accountability and effectiveness of Federal programs and operations by establishing,
         assessing, correcting, and reporting on management controls.
In addition, the FMFIA required the U. S. General Accounting Office (GAO) to issue
standards for internal control in the government. Control activities are the policies,
procedures, techniques, and mechanisms that enforce management directives. Certain
categories of control activities are common to all agencies and include, among other things,
appropriate documentation, accurate and timely recording of transactions and events, and
the proper execution of transaction and events.

Within USAID, the Agency issued Automated Directives System (ADS) Chapter 596,
Management Accountability and Control, which provides the Agency's policy and
procedures for establishing, assessing, correcting, and reporting on management controls
under FMFIA and OMB Circular No. A-123. Additional guidance for assessing the
adequacy of management controls and annual instructions for reporting the status of
management controls is periodically provided by USAID's Bureau for Management,
Office of Management, Planning and Innovation (M/MPI).

Audit Objectives

The Office of the Regional Inspector General, Pretoria (RIG/Pretoria), audited
USAID/Kenya to answer the following audit objectives:

•   Has USAID/Kenya established management controls and periodically assessed
    these controls to identify deficiencies in accordance with the Federal Managers'
    Financial Integrity Act and related regulations and guidance?

•   Has USAID/Kenya reported material weaknesses in accordance with the Federal
    Managers' Financial Integrity Act and related regulations and guidance?

•   Has USAID/Kenya taken timely and effective action to correct identified
    management control deficiencies in accordance with the Federal Managers'
    Financial Integrity Act and related regulations and guidance?

Appendix I includes a discussion of the scope and methodology for this audit.

Audit Findings

Has USAID/Kenya established management controls and periodically assessed these
controls to identify deficiencies in accordance with the Federal Managers' Financial
Integrity Act and related regulations and guidance?

USAID/Kenya has established management controls and periodically assessed these
controls to identify deficiencies in accordance with the FMFIA and related regulations and
guidance. However, we believe the Mission could further strengthen its management
controls, and its review of those controls, by performing a formal and systematic risk
assessment of its operations and programs. These areas are discussed below.



                                             2
Management Controls
Established and Assessed

FMFIA and OMB Circular No. A-123 provide guidance for use by Federal Agencies and
managers to, among other things, establish management controls and to periodically assess
the adequacy of those controls. Further, ADS Chapter 596, "Management Accountability
and Control" instructs missions and cognizant managers to: (1) appoint a Management
Control Official (MCO) to oversee and coordinate management accountability and control
issues within the mission; (2) ensure that appropriate and cost-effective management
controls are established; (3) continuously perform management control assessments in
accordance with instructions issued by USAID's Bureau for Management's Office of
Management Planning and Innovation (M/MPI); and (4) establish a Management Control
Review Committee (MCRC) to assess and monitor deficiencies in management controls.

Moreover, M/MPI provides annual guidance to missions for conducting FMFIA reviews. In
conducting reviews, missions are instructed to use existing sources of information to
supplement management's judgment in assessing the adequacy of management controls,
including: (1) management knowledge gained from daily operation of Agency programs and
systems; (2) management reviews; (3) Office of Inspector General and General Accounting
Office reports; and (4) program evaluations.

Missions are also instructed to review the Agency's ADS in determining mission
compliance with policies and essential procedures. M/MPI provides a Management Control
Checklist to assist in conducting the reviews. The Fiscal Year 1998 Checklist contained 163
control techniques extracted from the ADS.

In implementing the ADS, USAID/Kenya appointed the USAID/Kenya Acting Controller
as the MCO to oversee and coordinate management accountability and control issues within
the Mission. The Mission also established a MCRC comprised of office managers and
headed by the Deputy Mission Director to provide oversight of its management control
process.

USAID/Kenya took an organized approach in completing the Fiscal Year 1998 FMFIA
assessment. The Controller’s Office coordinated the review among the office managers or
Strategic Objective Team Leaders (SO team leaders) and cognizant financial analysts,
prepared a timetable for conducting the review and specified deadlines for the submission of
the review results. A financial analyst within the Controller’s Office formally transmitted
the M/MPI checklist containing 163 control techniques along with instructions to cognizant
offices within the Mission.

Upon receipt of the checklist, each office or SO team leader and cognizant staff determined
whether the controls in their areas were satisfactory and noted any deficiencies. The teams
then summarized their evaluation on a control technique worksheet and submitted it to a
Controller Office’s financial analyst assigned as the coordinator. After receiving this
evaluation, the financial analyst reviewed and validated both the ratings of controls and the
conclusions reached. These conclusions were subsequently reviewed by the Controller and



                                             3
Mission's MCRC, who determined what actions should be taken on deficiencies and
whether they should be considered material weaknesses. As required, USAID/Kenya
reported its material weaknesses. The following table highlights the areas addressed by these
control techniques.


                                CONTROL TECHNIQUES

            CATEGORY                                       NUMBER

            Program Assistance                             37
            Organization Management                         7
            Administrative Management                      40
            Financial Management                           44
            Acquisition and Assistance                     27
            Audit Management Resolution Program             5
            Other                                           3
                             TOTAL                         163


Risk Assessments Would Further
Strengthen the Mission’s FMFIA Process

We found that USAID/Kenya has established the management controls outlined in USAID's
ADS and, in some cases, has supplemented those controls. However, we believe formal and
systematic risk assessment of its operations and programs, would strengthen the process.

GAO Standards for Internal Control in the Federal Government state that internal controls
should provide for an assessment of the risks the agency faces from both external and
internal sources.

Most of the Mission’s assessments of management controls were conducted as a part of its
Audits and Audits Resolution Program. Consequently, the mission’s MCRC agenda
focused on FMFIA issues, audit recommendation follow up, audits in progress, and planned
audit management and resolution. While some of the USAID/Kenya SO teams conducted an
ongoing monitoring program other SO teams within the Mission routinely performed
management reviews by conducting site visits and field trips whose findings or results were
documented. However in fiscal year (FY) 98, the mission primarily performed extensive
management control assessments of its grantees and contractors, but did not systematically
devote resources to assessing its internal controls of mission operations or in identifying
areas that had high vulnerability to waste, mismanagement, fraud, abuse or
misappropriation. For example in FY 98, USAID/Kenya’s policies and procedures were
included in its mission orders. Most of these orders date back as far as 1984 with no updates
since that time. Moreover in 1998 the mission also issued 59 mission notices. Some of the
notices addressed management controls that would be more appropriate to include in a



                                             4
mission order, since mission notices are not normally used as a source of formal mission
policies.

In another example, a management review disclosed that $694,000 in non-expendable
property (NXP) was unaccounted for in June 1997. By FY 98, the Mission was able to
account for more than 80 percent of the loss after Offices of General Services and Financial
Management compared the NXP list of losses to an “auction items sold” list. Although the
mission indicated completed actions and events occurring between FY 92 – FY 97, the
MCRC did not document any discussion of other high-risk functions or planned
management assessments to determine the level of risk. As a result, mission operations
susceptible to high risk have not been identified or assessed periodically to ensure that
management controls mitigate the risks.

The benefits of risk assessment are two-fold. First, by conducting risk assessments, Mission
managers can ensure that they have established management controls that are appropriate to
their unique situation. Second, by identifying the level of risk in operations and programs,
senior Mission management can focus more resources on high risk areas and less resources
on low risk areas, thereby increasing its efficiency and effectiveness.

GAO recognizes the benefits of risk assessment and states that management needs to
comprehensively identify risks and should consider all significant interactions between
itself and other parties as well as internal factors within the entity and at the activity
level. 1 Once risks have been identified, they should be analyzed for their possible effect,
which includes estimating the risk’s significance, assessing the likelihood of its occurrence,
and deciding what actions to take to manage the risk.

During our audit, we found that the Mission did not perform formal risk assessments in
Fiscal Year 1998. Mission officials told us they believed that annual FMFIA assessment are
designed to disclose major control vulnerabilities and highlight the need for more rigorous
assessments. Although the mission managers told us they informally discussed vulnerable
operations and processes, those discussions were not documented or recorded for follow-up.
In addition they believed that guidance and training for field missions on conducting risk
assessments should come from USAID/Washington

As in the case of the Mission’s inability to account for non-expendable property,
USAID/Kenya established more stringent management controls after the vulnerability came
to their attention. Although USAID/Kenya has established management controls and in
some cases, supplemented those controls, we believe the Mission could further strengthen
the efficiency and effectiveness of its reviews of the controls, by performing a formal and
systematic risk assessment of its operations and programs. Therefore we are making the
following recommendation:

        Recommendation No. 1: We recommend that USAID/Kenya amend its
        Mission Orders to require regular risk assessments and reviews of
        internal mission controls.
1
    GAO’s Standards for Internal Control in the Federal Government, November 1999.

                                              5
Has USAID/Kenya reported material weaknesses in accordance with the Federal
Managers' Financial Integrity Act and related regulations and guidance?

OMB A-123, ADS Chapter 596 and M/MPI’s Fiscal Year 1998 instructions required
missions to identify material weaknesses. USAID/Kenya did so identifying two material
weaknesses; (1) Noncompliance of physical security of mission office building, and (2)
the lack of computer system protection against viruses. The Mission reported those
weaknesses in accordance with the Federal Managers' Financial Integrity Act and related
regulations and guidance in October of 1998.

The Office of Management and Budget (OMB) Circular No. A-123 requires that a
management control deficiency be reported if it is or should be of interest to the next level of
management. This allows the chain of command structure to determine the relative
importance of each deficiency. In this regard, USAID’s ADS Chapter 596 and M/MPI’s
Fiscal Year 1998 instructions required Missions to provide a FMFIA certification to the
cognizant Assistant Administrator with a copy to M/MPI, on the overall adequacy and
effectiveness of management controls. This certification identifies any management control
deficiencies determined to be material weaknesses, whether or not these deficiencies are
correctable within the Mission’s authority and resources.

The two material weaknesses reported by USAID/Kenya, physical security and computer
virus protection, required operational expense funds (OE) to correct. Therefore, they were
not correctable within the Mission’s authority and resources. In the aftermath of the U. S.
Embassy bombing in Nairobi in August 1998, OE money was used to pay for the increased
physical security at the USAID offices and residences as well as to reconfigure the Mission
offices to accommodate displaced embassy personnel. After this was accomplished
additional OE funds were used to relocate the embassy personnel to more permanent offices
while the temporary embassy was built. These actions not only required the use of the OE
money but also disrupted and increased the normal work for Mission personnel. These costs
put a great strain on the Mission’s OE budget and the Mission personnel and resulted in the
Mission not having OE money available to use to correct the management deficiencies.
Both deficiencies were corrected during FY 99.

Has USAID/Kenya taken timely and effective action to correct identified management
control deficiencies in accordance with the Federal Managers' Financial Integrity Act
and related regulations and guidance?

USAID/Kenya has taken effective action to correct deficiencies identified during its Fiscal
Year 1998 review. 2 The Mission outlined its corrective action for deficiencies identified in
its 1998 review in its MCRC meeting minutes and held periodic meetings to discuss the

2
 The Mission did not report any material weaknesses for FY 97, and therefore, did not
have any to correct before its FY ’98 FMFIA review.



                                               6
corrective actions. However, the Mission’s review and approval of the corrective actions
could be improved.

OMB Circular No. A-123 and USAID’s ADS Chapter 596 require Agency managers to take
timely and effective action to correct deficiencies identified. USAID/Kenya took the
appropriate action in correcting deficiencies identified in its Fiscal Year 1998 FMFIA
review. The Mission closed the two deficiencies noted in FY 1998’s FMFIA review.
However, the Mission’s MCRC files did not contain sufficient supporting documentation of
the closure of these two material weaknesses.

The Mission relied on the MCRC to document the closure of its material weaknesses in its
meeting minutes. However, the time lapse between the identification of a deficiency and the
time the deficiency is closed may be several months. Therefore, the MCRC minutes
recording of a deficiency identified in one fiscal year may not be documented as closed until
later in the next year. For example, USAID/Kenya identified the two material weaknesses
in FY 98; however, since a MCRC meeting was not conducted in the third quarter of FY 99,
the closure of the two material weaknesses was documented in the fourth quarter minutes.

The lack of documentation when corrective actions are completed makes it difficult to
determine if a corrective action was actually completed and whether the MCRC agreed to
the closure of the material weakness. With a formalized tracking system by which to
monitor the correction of an identified control deficiency, management would be better able
to review as well as report on progress toward closure.

OMB Circular No. A-123 and USAID guidance state that management control assessments
will be performed to identify deficiencies in Agency programs and operations and that
corrective action plans will be develop to track the Agency’s progress in resolving the
identified deficiencies. Although USAID/Kenya identified management control weaknesses,
the Mission did not develop a system to track corrective actions and identify when
corrective actions were completed. This occurred because the Mission’s system to record
the correction of a deficiency was not being used consistently and documentation of the
closure of the deficiency is not performed by using a formal closure memorandum
describing the corrective action that was taken. As a result, the Mission may not have
documentary support for the correction of identified management control deficiencies.

Although USAID/Kenya conducted MCRC meetings to discuss outstanding deficiencies,
we believe that including closure memorandums on corrective action taken would be
beneficial.

       Recommendation No. 2: We recommend that USAID/Kenya amend its
       Mission Orders to require closure memorandums or a description of the
       actions taken to correct management control deficiencies that are
       identified.




                                             7
Management Comments and Our Evaluation

In their written response to our draft audit report, USAID/Kenya management agreed with
Recommendation Numbers 1 and 2. They also stated that actions have been taken to
address those recommendations, which are summarized below.

With regard to Recommendation No. 1, management has drafted a Mission Order requiring
periodic assessments and reviews of its internal controls on FMFIA evaluation and
reporting. The first of these assessments will be made upon receipt of guidance from
USAID/Washington. Similarly, with regard to Recommendation No. 2, management has
included a provision in the above Mission Order requiring that formal closure
memorandums be required for all actions taken to correct management deficiencies.

Based on the aforementioned actions, we believe that appropriate management decisions
have been taken on the two recommendations. The Mission therefore needs to notify the
Office of Management Planning and Innovation (M/MPI) in Washington when final actions
are completed for the two recommendations

In addition, the Mission made some comments on our audit findings in the draft report
which provide clarifications, explanation, and additional information with regard to those
findings. Consequently, we have made appropriate revisions to the texts of those findings in
this report, as deemed necessary. A complete text of the Mission’s comments is included in
Appendix II.




                                             8
                                                                            APPENDIX I



                              SCOPE AND
                             METHODOLOGY



We audited USAID/Kenya’s implementation of the Federal Manager’s Financial Integrity
Act (FMFIA). The audit was performed in accordance with generally accepted government
auditing standards and was conducted from October 25 through November 19, 1999 at
USAID/Kenya in Nairobi.

We reviewed the Mission's Fiscal Year 1998 FMFIA assessment and deficiencies noted in
its Fiscal Year 1997 assessment. We did not design our audit to identify material
weaknesses that were not reported by the Mission; however, if any previously unreported
weaknesses came to our attention during the audit, we included these in our audit report.

The audit work included reviewing the Mission's system for establishing, assessing,
reporting and correcting management controls. To accomplish the audit objectives, we
reviewed the Federal Manager’s Financial Integrity Act, Office of Management and Budget
Circular No. A-123, General Accounting Office's "Standards for Internal Control in the
Federal Government," and USAID's Automated Directives System (ADS) Chapter 596 on
Management Accountability and Control. In addition, we reviewed the Agency’s guidance
for assessing the adequacy of management controls and annual instructions for reporting on
the status of these controls, as well as other ADS Chapters relating to Agency policies and
essential procedures, and recent Office of Inspector General audit reports performed at
USAID/REDSO/ESA.

We developed and used a questionnaire to obtain information from the Mission's
Management Control Official, Management Control Review Committee members and
operating unit managers. To supplement this information, we also reviewed available
documentation from Fiscal Years 1997 and 1998 FMFIA reviews, including management
control deficiencies identified and management action plans for correcting those
deficiencies. We reviewed the Mission's FMFIA Certifications to the AA/AFR on the
overall adequacy and effectiveness of management controls, the material weaknesses
identified, and obtained information on the status of the material weaknesses identified in
the Fiscal Years 1997 and 1998 reviews.




                                            9
           APPENDIX II
     Management Comments
                Page 1 of 3




10
           APPENDIX II
     Management Comments
                Page 2 of 3




11
           APPENDIX II
     Management Comments
                Page 3 of 3




12
